SEC.gov |  Salt Lake District Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Salt Lake District Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
SALT LAKE DISTRICT OFFICE
Audit Report No. 265September 20, 1997
Executive Summary
In April 1997, we performed
an audit of administrative controls in the Salt Lake District Office (SLDO).
We found that the SLDO's controls were generally functioning adequately.
We are recommending certain improvements, as summarized below and described
in the Audit Results section. The SLDO, in its attached comments, generally
concurred with our findings and recommendations.
The SLDO should improve imprest
fund procedures; use only one time and attendance log; store back-up computer
tapes off-site; and enhance readiness for possible earthquakes, among other
improvements.
Scope And Objectives
We reviewed the administrative
controls of the Salt Lake District Office. Our objective was to determine
whether the SLDO's controls were adequate and in compliance with Commission
policies and procedures.
The controls we reviewed included
those over travel, time and attendance, personnel, property inventory,
and the imprest fund. We did not review budgeting, accounting, and purchasing
since these functions generally are performed by the Central Regional Office
for the SLDO. The audit steps included interviews with SLDO administrative
staff and limited tests of SLDO records. Our review was performed in April
1997 in accordance with generally accepted government auditing standards.
BACKGROUND
The district office located in
Salt Lake City, Utah, has approximately fifteen staff, and provides support
in carrying out Commission programs to the Central Regional Office in Denver,
Colorado. The Central Regional Office performs certain functions for the
SLDO, including budgeting, accounting, purchasing, and processing of personnel
actions and travel vouchers. The Salt Lake District Office maintains personnel
files, time and attendance records, travel vouchers, and property management
records, and administers its transportation subsidy program.
Audit Results
We found that the Salt Lake District
Office's administrative controls were generally functioning adequately,
and operations were generally conducted in compliance with Commission policies
and procedures. We are recommending certain enhancements, as discussed
below.
Imprest Fund
The SLDO maintains a $100 imprest
fund administered by a principal and alternate cashier. We performed a
cash count and reviewed fund documentation and controls.
All cash was properly accounted for,
and the cashiers were properly authorized. We noted certain possible improvements
in operation of the fund to ensure its security, effectiveness, and compliance
with Treasury and Commission regulations, as follows:
(1) With one exception, receipts
were not stamped paid. The paid stamp is used to avoid duplicate payments.
(2) The principal and alternate cashiers
use the same cash box. Because cashiers are personally liable for the funds
assigned to them, separate cash boxes should be maintained.
(3) The cabinet used to secure the
cash box is locked with just a key. To assure fund security, Treasury and
Commission regulations recommend using a cabinet with a bar and combination
lock.
(4) The cashier had an outdated (September
1984) version of imprest fund desk procedures. We provided the cashier
with the latest (June 1993) version of Treasury regulations.
(5) The fund is only $100 and appears
too small to support SLDO's needs.
(6) The principal and alternate cashier
appear to need additional training.
Recommendation A
The SLDO should stamp all receipts
paid.
Recommendation B
The SLDO should obtain separate
cash boxes for the principal and alternate cashiers.
Recommendation C
The SLDO should obtain a bar and
combination lock for the cash box cabinet, or store the cash boxes in the
SLDO's safe.
Recommendation D
The SLDO should consider increasing
the size of the imprest fund or else obtaining a government credit card.
Recommendation E
The SLDO should provide additional
training as appropriate to the principal and alternate cashier.
Time and Attendance
We reviewed 1997 time and attendance
records for a judgment sample of six SLDO staff. The documentation was
generally complete and accurate, and timekeepers do not sign their own
reports (which would weaken controls).
We noted that the backs of sick leave
slips were not being completed and that sign-in/out procedures were not
consistently observed. During our review, the District Administrator issued
a memorandum to SLDO employees addressing these issues.
We also noted that the SLDO uses
separate logs for sign-in/out and flex time. Only one log is needed.
Recommendation F
The SLDO should use one seriatim
time and attendance log.
Property Management
To test the completeness and accuracy
of SLDO property records, we selected a judgment sample of ten items. We
traced five items from the property records to the physical property, and
five items of property to the records. All items were properly accounted
for. Also, we noted that laptop computers and their related docking stations
were adequately secured.
Travel Vouchers
We selected a judgment sample of
fifteen travel authorizations to verify the timeliness and accuracy of
the related travel vouchers. One voucher had not yet been submitted, although
the travel was completed several weeks before. The SEC's Travel Handbook
(SECHDBK 17-1, November 1995) requires vouchers to be submitted within
five days after completion of the trip.
The remaining vouchers were timely and accurate.
Recommendation G
The SLDO should remind its staff
to submit travel vouchers timely.
Backup Computer Tapes
The SLDO does not store its back-up
computer tapes off-site. If a disaster occurred, the tapes could be destroyed,
defeating the intent of maintaining them.
Recommendation H
The SLDO should store computer
tapes off-site (for example, at the Central Regional Office).
Wire Closet
The SLDO's local area network (LAN)
file server and communications equipment is located in an unlocked wire
closet. To improve security, access to this equipment should be restricted.
Recommendation I
The SLDO should install a lock
on the wire closet door.
Earthquake Mitigation
The Salt Lake City District Office
(SLDO) is in an earthquake prone area (zone 3, on a scale from 0 to 4).
We noted that the SLDO could take additional steps to reduce the hazards
of a possible earthquake. For example, bookshelves could be secured to
walls, staff could be trained in evacuation procedures, and a disaster
assistant could be designated to ensure staff are vacated during emergencies.
The District Administrator indicated
that the SLDO building has been approved by the General Services Administration
(GSA). However, the Office of Administrative and Personnel Management,
which leases Commission space, does not have documentation to verify the
building's compliance with GSA's seismic safety standards.
Recommendation J
The SLDO should take steps to reduce
hazards from a possible earthquake.
Recommendation K
The Office of Administrative and
Personnel Management should maintain documentation confirming that Commission
leased space in earthquake prone areas complies with GSA standards.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us